              Office of Audits
              Office of Inspector General
              U.S. General Services Administration

 DATE:              November 12, 2013
 TO:                Dorothy L. Robyn
                    Commissioner
                    Public Buildings Service (P)


 FROM:              Marisa A. Roinestad
                    Program Director
                    Real Property Audit Office (JA-R)
 SUBJECT:           PBS Needs to Develop Policies and Procedures for Use of
                    Section 412 Authorities
                    Audit Memorandum Number A130132

This memorandum conveys our concerns regarding the Public Buildings Service’s
(PBS) lack of policies and procedures to manage real property exchanges for services
granted under Section 412 of the General Services Administration General Provisions,
Consolidated Appropriations Act, 2005 (Section 412). PBS has proposed exchanging
property for services on multiple projects; however, it has yet to develop any policies or
procedures to implement these exchanges and ensure they are in the best interest of
the Government and the taxpayer.

Section 412 states:

         Notwithstanding any other provision of law, the Administrator of General
         Services may convey, by sale, lease, exchange or otherwise, including
         through leaseback arrangements, real and related personal property, or
         interests therein, and retain the net proceeds of such dispositions in an
         account within the Federal Buildings Fund to be used for the General
         Services Administration’s real property capital needs: Provided, That all
         net proceeds realized under this section shall only be expended as
         authorized in annual appropriations Acts: Provided further, That for the
         purposes of this section, the term ‘‘net proceeds’’ means the rental and
         other sums received less the costs of the disposition, and the term ‘‘real
         property capital needs’’ means any expenses necessary and incident to
         the agency’s real property capital acquisitions, improvements, and
         dispositions.




                                          1
PBS has proposed using the exchange authority on multiple properties, including the
Federal Bureau of Investigation Headquarters in Washington, D.C.; the Spring Street
Courthouse in Los Angeles, California; the David W. Dyer Federal Building and
Courthouse in Miami, Florida; and the Metro West Federal facility in Baltimore,
Maryland. However, the only policy or guidance that we are able to identify at this time,
regarding the Section 412 authority, is the General Services Administration Delegations
of Authority Manual (ADM P 5450.39D). The manual requires the approval of the
Commissioner prior to any use or exercise of the Section 412 authority and makes real
property exchanges subject to the approval of the Administrator.

The exchange of real property for services can be very complex, involving the valuation
of both the real property and the services, which may not be defined up front. In some
cases, a combination of services and/or real property may be exchanged for another
combination of services and/or real property, further complicating the valuation effort.
Additionally, comparing multiple bids with variable options adds to the complexity.

Given the complexity of these exchanges, PBS should implement policies and
procedures to ensure goals and objectives are achieved and that the best value is
obtained for the taxpayer.

Management Comments

In its comments, PBS stated that it has established policies and procedures for real
property exchanges and cites the “Guidance for Real Property Exchanges of Non-
Excess Property” (Guidance), dated April 8, 1997. Management stated that the
Guidance is applicable to Section 412 transactions. PBS added that it is in the process
of finalizing guidance specific to exchanges of property for services, which it expects to
issue in early 2014. PBS’s response and the Guidance are included in their entirety in
Appendix A.

Office of Inspector General Response

This audit memorandum is concerned with the lack of policies and procedures related to
the Section 412 exchange of real property for services. The Guidance provided by PBS
pre-dates the 2005 Section 412 authority, and is not specifically applicable to
exchanges of real property for services. Rather, the Guidance is applicable to real
property exchanges under the Public Buildings Act of 1959 and the Federal Property
and Administrative Services Act of 1949. For example, the Guidance directs that
appraisals be completed for all properties involved in the exchange; however, it does
not address the pricing for services, which is generally done through the competitive
procurement process. Given this, PBS needs to develop and implement policies and
procedures for the exchange of real property for services to ensure that the exchanges
are in the best interest of the Government and the taxpayer.

If you have any questions regarding this audit memorandum, please contact me at 202-
273-7241 or Kyle Plum, Auditor-In-Charge, at 202-273-5004.



                                        2
Appendix A – Management Comments




                      A-1
Appendix A – Management Comments (cont.)




                       A-2
Appendix A – Management Comments (cont.)




                       A-3
Appendix A – Management Comments (cont.)




                       A-4
Appendix A – Management Comments (cont.)




                       A-5
Appendix A – Management Comments (cont.)




                       A-6
Appendix A – Management Comments (cont.)




                       A-7
Appendix B – Memorandum Distribution
Commissioner, PBS (P)

Deputy Commissioner, PBS (PD)

Assistant Commissioner, Real Property Asset Management (PT)

Director, Management and Oversight Division (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)




                                       B-1
